DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


Memorandum                                                                     OFFICE OF INSPECTOR GENERAL


         DATE:     A         4 2003
    REPLY TO
     ATTN OF:    IG-34 (A03CH001)                       Audit Report Number: OAS-L-03-19

    SUBJECT:     Audit of Recurring Acquisitions at the Chicago Operations Office
           TO:   Manager, Chicago Operations Office


                 The purpose of this report is to inform you of the results of our review of
                 acquisitions at the Chicago Operations Office. The review was initiated in
                 May 2003 and fieldwork was conducted through July 2003 at the Chicago
                 Operations Office. The audit methodology is described in. an attachment to this
                 report.

                 INTRODUCTION AND OBJECTIVE

                 The Chicago Operations Office awards contracts and interagency agreements in
                 support of the Department of Energy's mission. Award of these instruments is to be
                 accomplished in accordance with Federal and Departmental regulations. In
                 addition, the Department has established performance targets for the application of
                 performance measures in service contracts. Our objective was to determine
                 whether controls are in place to ensure acquisitions are adequately competed,
                 comply with Federal and Departmental directives, and contain appropriate
                 performance measure attributes.

                  CONCLUSION AND OBSERVATIONS

                  Nothing came to our attention to indicate that untested acquisitions were not in
                  compliance with applicable regulations and guidance. Specifically, the audit did
                  not identify any significant deviation from prescribed procurement practices for the
                  sampled contracts and interagency agreements.

                  Since no recommendations are being made, a formal response is not required. We
                  appreciate the cooperation of the Chicago Operations Office staff during the audit.




                                                           Ricke R. Hass, Director
                                                           Science, Energy, Technology,
                                                             and Financial Audits
                                                           Office of Audit Services
                                                           Office of Inspector General

                 cc: Audit Liaison, Chicago Operations Office
                     Team Leader, Audit Liaison, ME-1.1
                                                                                     Attachment
METHODOLOGY

The audit was conducted at the Chicago Operations Office. Assessment was performed for a
judgmental sample of nineteen contracts and interagency agreements with a total award value of
$164 million, from a universe of 107 in effect during Fiscal Year 2002 with a total award value
of $2.1 billion. Reviews of acquisition files and discussions with acquisition staff were
performed during the audit in assessing attributes that included: appropriate type of contract;
 competitive status; award justification; and performance measures.

The audit was performed according to generally accepted Government auditing standards for
financial related audits and included test of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the objective. Because our audit survey was
limited, it would not have disclosed all internal control deficiencies that may have existed.

We discussed the audit results with the Chicago Operations Office's Assistant Manager for
Acquisitions and Assistance during an exit conference on July 31, 2003.




                                                 2
DOE   F   1325.8                                                                                   O As-L- c? - q7
  (8-89)
EFG (07-90)


United States Government                                                                          Department of Energy

memorandum
               DATE:       A0          2093
          REPLY TO
          ATTN OF:     IG-34 (A03CH001)

          SUBJECT:     Final Report Package for "Audit of Recurring Acquisitions at the Chicago Operations Office"

                       Audit Report Number:

                   TO: Frederick D. Doggett, Assistant Inspector General for Audit Services

                       Attached is the required final report package on the subject audit. The pertinent details are:
                           1. Actual Staff days:      69
                               Actual Elapsed days: 92

                           2. Names of OIG and/or contractor audit staff:
                               Assistant Director:   George W. Collard
                               Team Leader:          Lindell J. Williams
                               Auditor-in-Charge:    Tom Van Deven
                           3. Coordination with Investigations and Inspections:

                               Investigations:       Yvette Milam
                                                     May 17, 2003 & August 12, 2003
                               Inspections:          Henry Minner
                                                     April 25, 03 & A         st 5, 2003



                                                             Rickey    . Hass, Director
                                                             Science, Energy, Technology,
                                                               and Financial Audits
                                                             Office of Audit Services
                                                             Office of Inspector General
                       Attachments:
                       1. Final Report (3)
                       2. Monetary Impact Report
                       3. Audit Project Summary Report
                       4. Audit Database Information Sheet
                                                                                                                Attachment 2

                                          MONETARY IMPACT OF REPORT NO.:


      1. Title of Audit:       Audit of Recurring Acquisitions at the Chicago Operations Office

      2. Division:             Science. Energy, Technology, and Financial Audits

      3. Project No.:        .A03CH001

      4. Type of Audit:

             Financial:                                             Performance:        X
                Financial Statement                                   Economy and Efficiency
                Financial Related                                     Program Results
            Other (specify type):

5.

                                                                                                               MGT.            POTENTIAL
          FINDING                        BETTER USED                         QUESTIONED COSTS                POSITION           BUDGET
                                                                                                                                 IMPACT
                                                 Recurrinn
(A)             (B)              (C)     (D)        (E)      (F)        (G)           (H)        (I)            (J)                  (K)
                Title           One     Amount     No.      Total    Questioned   Unsupported   Total        C=Concur               Y=Yes
                                Time     Per       Yrs.    Amount     Portion       Portion                  N=Noncon               N=No
                                         Year                                                                 U=Undec
                                                            N/A                                 N/A
      No Findings




TOTALS--ALL FINDINGS




6. Remarks: Audit report contains no reportable potential monetary impact.

7. Contractor:                                             10. Approvals:                                            /,,   /
8. Contract No.:           __Division                                   Director & Date                          1             03
9. Task Order No.:                                             Technical Advisor & Date                 g,      87/,
                                                  Office of the Inspector General                              (OIG)
                                            Audit Project Office Summary                                       (APS)
                                                                                                                                       Page 1
Report run on:                     August 15, 2003 10:56 AM


  Audit#: A03CH001                Ofc:      CHA     Title: CONTROLS OVER RECURRING ACQUISITIONS

                                                                    **'*    Milestones        ****
                                                   Planned                 End of Survey               Revised               Actual


   Entrance Conference:.....                      01-APR-03                                          07-MAY-03             07-MAY-03
   Survey:..                                                                                         30-JUL-03
                                                                                                     3                     30-JUL-03

   Draft Report:............
   Completed (With Report):.                      01-OCT-03                 30-JUL-03                22-AUG-03
   ------------      Elapsed Days:                     183                            84                        107            100


   Date Suspended:                                                    Date Terminated:
   Date Reactivated:                                                  Date Cancelled:
   DaysSuspended(Cur/Tot):                                          ) Report Number:
   Rpt Title:                                                          Report Type:                            Not Found




                                   S   '.          ****Audit               Codes   and Personnel**
   Class:         .PER    PERFORMANCE
   Program:               Not Found
  MgtChall:               Not Found
                                                                                            AD:      459        COLLARD
   Site:                  Not Found
                                                                                           AIC:      478        VAN DEVEN
   SecMiss:               Not Found
                                                                                   Team Ldr:         96         WILLIAMS
   PresInit:              Not Found                                                Tech Adv:         421        SCHULMAN

                                                      ****     Task Information ****

         Task No:
          Task Order Dt:                                              CO Tech. Rep:
          Orig Auth Hrs:                                              Orig Auth Costs:
          Current Auth:                                               Current Auth Cost:
          Tot Actl IPR Hr:                                            Tot Actl Cost:


                                                             ****      Time Charges ****
                     Emp/Cont Name                  Numdays                    Last Date

                     BATSON, C                                2.8              14-JUN-03
                     WILLIAMS, L                             15.0              26-JUL-03
                     VAN DEVEN, T                            51.4              26-JUL-03
                         Total:                              69.2

                                                    . .**** Keywords ****                                  .           .
                                         Office of the Inspector General (OIG)
                                    Audit Project Office Summary (APS)
                                                                                                    Page 2
Report run on:                 August 15, 2003 10:56 AM



    L                             ****    Location Information ****
    Code.   Description

    CHO     CHICAGO OPERATIONS OFFICE
    ORO     OAK RIDGE OPERATIONS OFFI


                    :
            Find#****Finding                            Information                o ept   Dep t     Dep
   Find#                 Title                     Te      AAmount<   Yrs Imp   Pos Pos    Amount    Date
                                                                                 Attachment 4

                     AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03CH001

2. Title of Audit: Audit of Recurring Acquisitions at the Chicago Operations Office

3. Report No./Date: OAS-L-03-19, August 14, 2003

4. Management Challenge Area: Contract Management

5. Presidential Mgmt Initiative: Budget and Performance Integration

6. Secretary Priority/Initiative: No

7. Program Code: MA

8. Location/Sites: Chicago Operations Office, Argonne, 1.

9. Finding Summary: No indications of impropriety were identified during the review of
   contracts and interagency agreements.

10. Keywords:

   Contracts
   Interagency Agreements
   Federal Acquisition Regulations
   DEAR
   Support Service Contracts
